Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     MEDICARE PAID FOR
       HIV DRUGS FOR
   DECEASED BENEFICIARIES




                       Suzanne Murrin
                  Deputy Inspector General for
                   Evaluation and Inspections

                        October 2014
                       OEI-02-11-00172
Medicare Paid for HIV Drugs for Deceased Beneficiaries
OEI-02-11-00172

WHY WE DID THIS STUDY
Under the Medicare Part D program, the Centers for Medicare & Medicaid Services
(CMS) contracts with private insurance companies, known as sponsors, to provide
prescription drug coverage to beneficiaries who choose to enroll. The Office of Inspector
General (OIG) has had ongoing concerns about Medicare paying for drugs and services
after a beneficiary has died.

Drugs that treat the human immunodeficiency virus (HIV) can be a target for fraud,
waste, and abuse, primarily because they can be very expensive. Although this report
focuses on HIV drugs, the issues raised are relevant to all Part D drugs.

HOW WE DID THIS STUDY
We based this study on an analysis of Prescription Drug Event (PDE) records for HIV
drugs in 2012. Part D sponsors submit these records to CMS for each drug dispensed to
beneficiaries enrolled in their plans. Each record contains information about the drug,
beneficiary, pharmacy, and prescriber. We used the Beneficiary Enrollment Database,
the Social Security Administration’s Death Master File, and Accurint’s Death Records to
identify beneficiaries’ dates of death.

WHAT WE FOUND
Medicare paid for HIV drugs for over 150 deceased beneficiaries. CMS’s current
practices allowed most of these payments to occur. Specifically, CMS has edits
(i.e., systems processes) in place that reject PDE records for drugs with dates of service
more than 32 days after death. CMS’s practices allow payment for drugs that do not meet
Medicare Part D coverage requirements. Most of these drugs were dispensed by retail
pharmacies.

This review looked only at HIV drugs, which account for one-quarter of one percent of
all Part D drugs in 2012. However, our findings have implications for all drugs because
Medicare processes PDE records for all drugs the same way. Considering the enormous
number of Part D drugs, a change in practice would affect all Part D drugs and could
result in significant cost savings for the program and for taxpayers.

WHAT WE RECOMMEND
We recommend that CMS change its practice of paying for drugs that have a date of
service within 32 days after the beneficiary’s death. CMS should eliminate or—if
necessary for administrative processing issues—shorten the window in which it accepts
PDE records for drugs dispensed after a beneficiary’s death. Such a change would
prevent inappropriate payments for drugs for deceased beneficiaries and lead to cost
savings for the program and for taxpayers. CMS concurred with our recommendation.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................7 

           Medicare paid for HIV drugs for over 150 deceased beneficiaries 

           as a result of CMS’s current practices .............................................7 

           Most of the drugs were dispensed by retail pharmacies ..................8 

Conclusion and Recommendation .............................................................10 

           Agency Comments and Office of Inspector General Response.....11

Appendix 

     A: HIV Drugs ......................................................................................12 

     B: Agency Comments .........................................................................14 

Acknowledgments......................................................................................15

                 OBJECTIVE
                 To determine the extent to which Medicare Part D paid for human
                 immunodeficiency virus (HIV) drugs for deceased beneficiaries in 2012.

                 BACKGROUND
                 Medicare Part D provides an optional prescription drug benefit to
                 Medicare beneficiaries. The Centers for Medicare & Medicaid Services
                 (CMS) contracts with private insurance companies, known as Part D
                 sponsors, to provide drug coverage to beneficiaries who choose to enroll
                 in the program.1 In 2012, 37 million beneficiaries were enrolled in
                 Part D.2
                 The Office of Inspector General (OIG) has had ongoing concerns about
                 Medicare payments for drugs and services after a beneficiary has died.
                 OIG has found that although CMS has some safeguards to prevent these
                 improper payments, it continues to make some payments on behalf of
                 deceased beneficiaries.3 This raises questions about how effective the
                 efforts of CMS and its contractors are in preventing improper payments
                 and what opportunities exist for cost savings.
                 This report addresses payments on behalf of deceased beneficiaries for
                 Part D drugs, specifically HIV drugs. HIV drugs are antiretroviral drugs
                 that are the primary treatment of people living with HIV. These drugs can
                 be a target for fraud, waste, and abuse, primarily because they can be very
                 expensive. For example, one common HIV drug costs about $1,700 for a
                 month’s supply. Although the report focuses on HIV drugs, the issues
                 raised are relevant to all Part D drugs because controls to prevent
                 payments after death are not specific to HIV drugs.
                 Medicare Part D
                 Medicare Part D covers drugs prescribed for medically accepted
                 indications.4 Medicare beneficiaries have the option of enrolling in
                 stand-alone prescription drug plans, or they may receive prescription drug
                 coverage as a part of managed care plans. The managed care plans

                 ____________________________________________________________
                 1
                   42 U.S.C. §§ 1395w-101(a)(1) and 1395w-112(b)(1).
                 2
                   The Boards of Trustees, Federal Hospital Insurance and Federal Supplementary
                 Medical Insurance Trust Funds, 2013 Annual Report of the Boards of Trustees of the
                 Federal Hospital Insurance and Federal Supplementary Medicare Insurance Trust
                 Funds, pp. 151 and 157. Accessed at http://downloads.cms.gov/files/TR2013.pdf on
                 November 26, 2013.
                 3
                   For example, OIG, Medicare Payments Made on Behalf of Deceased Beneficiaries in
                 2011 (OEI-04-12-00130), October 2013.
                 4
                   42 U.S.C. 1395w-102(e)(1).

Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                              1
                 (known as Medicare Advantage plans or Medicare Part C) also include
                 medical benefits.
                 Most beneficiaries are responsible for certain costs under Part D, which
                 may include a monthly premium, an annual deductible, and coinsurance.5
                 However, certain low-income beneficiaries are eligible to receive
                 assistance to pay some or all of these Part D costs.6 These beneficiaries
                 pay minimal or no co-pays for drugs.
                 CMS requires that Part D sponsors develop a network of pharmacies to
                 dispense drugs to beneficiaries enrolled in their plans.7 CMS requires
                 these pharmacy networks to be geographically diverse and to include
                 different types of pharmacies, such as retail pharmacies and
                 long-term-care pharmacies.
                 Pharmacies submit claims to sponsors (or to sponsors’ Pharmacy Benefit
                 Managers) for drugs they dispense for beneficiaries. If the medication is
                 never picked up, then the pharmacy must reverse the claim and return the
                 drugs to stock.8
                 Sponsors then submit prescription drug event (PDE) records to CMS for
                 all covered drugs that are dispensed to beneficiaries throughout the year.9
                 These records include cost data as well as information about each drug,
                 including the date of service, the pharmacy, and the beneficiary.
                 Payments to Sponsors
                 CMS makes monthly prospective payments to sponsors for each
                 beneficiary enrolled in their plans. These payments are based on the bids
                 that sponsors submit before the beginning of the plan year. Each bid
                 estimates the sponsor’s anticipated drug costs as well as its administrative
                 costs. 10 CMS uses the approved bids to determine the premium amounts
                 that beneficiaries pay and the monthly payments that it makes to each




                 ____________________________________________________________
                 5
                   42 CFR §§ 423.293 and 423.104(d), (e), and (f). 

                 6
                   42 CFR § 423.315(d). 

                 7
                   42 CFR § 423.120.

                 8
                   CMS, Announcement of Calendar Year (CY) 2014 Medicare Advantage Capitation 

                 Rates and Medicare Advantage and Part D Payment Policies and Final Call Letter, 

                 April 1, 2013, p. 144. Accessed at http://www.cms.gov/Medicare/Prescription-Drug-
                 Coverage/PrescriptionDrugCovContra/Downloads/RateNotice.pdf on July 7, 2014.

                 9
                   CMS, 2011 Regional Prescription Drug Event Technical Assistance Participant Guide,
                 p. 1-15. Accessed at http://www.csscoperations.com/internet/Cssc.nsf/files/
                 PDEParticipantGuide%20cameraready%20081811.pdf/$FIle/PDEParticipantGuide
                 %20cameraready%20081811.pdf on July 8, 2014.
                 10
                    42 CFR § 423.265(c)(1).

Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                            2
                 sponsor.11 These monthly payments are for three subsidies—the direct
                 subsidy, the low-income cost-sharing subsidy, and the reinsurance
                 subsidy.12
                      	 The direct subsidy, together with the beneficiary premium, is
                         designed to cover the sponsor’s cost of providing the benefit to
                         each beneficiary.
                      	 The reinsurance subsidy covers the Federal Government’s share
                         of drugs costs for beneficiaries who reach a certain cost threshold
                         (known as catastrophic coverage), and
                      	 The low-income cost-sharing subsidy covers the Federal
                         Government’s portion of the cost-sharing payment for certain
                         low-income beneficiaries.
                 After the close of the plan year, CMS reconciles these monthly
                 prospective payments with the actual costs incurred by the sponsors to
                 determine at the end of the year whether CMS owes money to sponsors or
                 sponsors owe money to CMS. 13 CMS determines each sponsor’s actual
                 costs based primarily on the PDE records that the sponsor submits.14 If
                 sponsors submit PDE records for drugs that should not have been covered
                 by Part D, payments to sponsors may be too high. This is particularly an
                 issue when the PDE records submitted are for beneficiaries who receive
                 the low-income cost-sharing subsidy or who have reached the catastrophic
                 coverage threshold, because the Federal Government is responsible for a
                 larger share of their drug costs.15
                 Under current practice, CMS has edits (i.e., systems processes) in place
                 that will not accept any PDE records for drugs with dates of service more
                 than 32 days after the beneficiary’s date of death. 16 However, according
                 to CMS it is possible that—because of delays in receiving death
                 information—it will accept a PDE with a date of service that is after the
                 32-day window. For this reason, beginning with contract year 2013, CMS
                 began conducting additional analysis to identify and exclude these PDE
                 ____________________________________________________________
                 11
                    42 CFR §§ 423.286 and 423.315(b).
                 12
                    42 CFR § 423.315. Also see, CMS, 2011 Regional Prescription Drug Event Technical

                 Assistance Participant Guide, pp. 1-16–1-18. 

                 13
                    42 CFR § 423.343.

                 14
                    CMS, 2011 Regional Prescription Drug Event Technical Assistance Participant Guide, 

                 p. 1-15. Sponsors are also required to report direct and indirect remuneration, such as
                 drug manufacturer rebates.

                 15
                    Part D sponsors are also subject to risk sharing. Risk-sharing payments may also be 

                 inaccurate if PDE records for noncovered drugs are included in reconciliation. For more 

                 information about risk sharing, see 42 CFR § 423.336.

                 16
                    See CMS, 2011 Regional Prescription Drug Event Technical Assistance Participant
                 Guide, p. 8-13.

Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                               3
                 records from the reconciliation process.17 CMS has informational edits
                 that alert Part D sponsors if the date of service on the PDE record is 32 or
                 fewer days after the beneficiary’s date of death.
                 This study focuses on PDE records submitted by sponsors for drugs
                 dispensed after the beneficiary’s date of death because these PDE records
                 affect payments to sponsors and the overall cost of the Part D program.
                 See Methodology section for more detailed information.
                 Related Work
                 A recent OIG report found that nearly 1,600 Part D beneficiaries had
                 questionable utilization patterns for HIV drugs in 2012.18 In total,
                 Medicare paid $32 million for HIV drugs for these beneficiaries. These
                 beneficiaries had no indication of HIV in their Medicare histories,
                 received an excessive dose or supply of HIV drugs, received HIV drugs
                 from a high number of pharmacies or prescribers, or received
                 contraindicated drugs. These questionable patterns indicate that
                 beneficiaries may be receiving inappropriate or unnecessary drugs. It may
                 also indicate that a pharmacy is billing for drugs that a beneficiary never
                 received, or that a beneficiary’s identification number has been stolen.
                 Another OIG report looked at the extent to which CMS made monthly
                 prospective payments in 2011 to Part C and D sponsors for deceased
                 beneficiaries.19 According to CMS policy, Medicare pays the sponsor the
                 full payment for the month in which a beneficiary dies. OIG found that in
                 2011, CMS made monthly payments to Part C and D sponsors totaling
                 $21 million for deceased beneficiaries in the months after death.
                 Lastly, another OIG report found that in 2006 and 2007 CMS paid
                 $3.6 million in monthly prospective payments to certain Part D sponsors
                 for deceased beneficiaries.20 It found that although CMS had correctly
                 stopped payments for the vast majority of deceased beneficiaries in 2006
                 and 2007, its systems did not always identify and prevent improper
                 payments. In addition, CMS did not always recover on a timely basis the
                 payments it had made on behalf of deceased beneficiaries.




                 ____________________________________________________________
                 17
                    CMS, Reconciliation PDE Exclusion Process, January 6, 2014.
                 18
                    OIG, Part D Beneficiaries with Questionable Utilization Patterns for HIV Drugs

                 (OEI-02-11-00170), August 2014. 

                 19
                    OIG, Medicare Payments Made on Behalf of Deceased Beneficiaries in 2011

                 (OEI-04-12-00130), October 2013. 

                 20
                    OIG, Review of Medicare Payments to Prescription Drug Plans on Behalf of Deceased

                 Enrollees (A-05-09-00027), May 2011. 


Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                            4
                 METHODOLOGY
                 This current study takes a different approach than the two previous studies
                 that have identified Part D payments made on behalf of deceased
                 beneficiaries. Whereas the other studies focused on monthly prospective
                 payments, this study focuses on PDE records with dates of service after
                 the beneficiary’s date of death. Both the monthly payments and the
                 prescription drug costs are factored into the amount that CMS ultimately
                 pays for Part D.
                 Analysis of HIV Drugs
                 This study is based on an analysis of all PDE records for HIV drugs in
                 2012. Each record contains information about the drug and beneficiary, as
                 well as the identification number for the pharmacy.
                 We first identified all PDE records for HIV drugs with dates of service
                 from January 1 to December 31, 2012. To do this, we matched the Food
                 and Drug Administration’s (FDA) list of HIV drugs to First Databank and
                 Red Book to identify the National Drug Codes (NDC) for HIV drugs.21 In
                 total, we identified 654 NDCs. Using these NDCs, we identified
                 3,177,937 PDE records for HIV drugs that were dispensed to
                 146,121 beneficiaries in 2012. These PDE records accounted for
                 0.26 percent of the 1.24 billion records for all Part D drugs dispensed that
                 year. See Appendix A for a list of HIV drugs and their generic names.
                 Next, we took several steps to identify beneficiaries for whom HIV drugs
                 were dispensed after their date of death. Using the Health Insurance
                 Claims Number (HICN), we matched the PDE records to the Beneficiary
                 Enrollment Database (EDB) to determine the beneficiary’s date of the
                 death. Next, we compared the beneficiary’s date of death with the date of
                 service on the PDE record.
                 For records where the date of service was after the date of death, we took
                 additional steps to ensure the date of death listed in the EDB was accurate.
                 Specifically, we consulted two additional sources—the Social Security
                 Administration’s Death Master File and Accurint’s Death Records—to




                 ____________________________________________________________
                 21
                   FDA, Antiretroviral Drugs Used in the Treatment of HIV Infection, August 2013. 

                 Accessed online at http://www.fda.gov/ForConsumers/byAudience/ForPatientAdvocates/

                 HIVandAIDSActivities/ucm118915.htm on November 12, 2013. First Databank and 

                 Red Book contain both NDCs and drug names. We used both sources to ensure we had a 

                 comprehensive list of NDCs for HIV drugs. 


Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                           5
                 verify the date of death.22 If the dates of death did not match across the
                 three sources, we took the latest date and used it in our analysis.
                 Next, we calculated the total number of HIV drugs dispensed after the date
                 of death.23 We then determined the number of beneficiaries and the total
                 drug costs. We also calculated the difference between the date of service
                 and the date of death. We determined the total number of drugs with dates
                 of service that were within certain numbers of days after death and the
                 total cost of these drugs.
                 Lastly, we identified the pharmacies that dispensed each of these drugs.
                 To determine the type of each pharmacy, we matched the National
                 Provider Identifiers (NPIs) on the PDE record to the database of the
                 National Council for Prescription Drug Programs. This database contains
                 descriptive information about each pharmacy, including the type of
                 pharmacy (e.g., retail, long-term care, mail order).24
                 Limitations
                 We did not independently verify the accuracy of the PDE records,
                 including the accuracy of the dates of service on the PDE records.
                 Standards
                 This study was conducted in accordance with the Quality Standards for
                 Inspection and Evaluation issued by the Council of the Inspectors General
                 on Integrity and Efficiency.




                 ____________________________________________________________
                 22
                    Accurint is a LexisNexis data repository that contains more than 20 billion records
                 from more than 10,000 data sources. Accurint’s primary source for dates of death is
                 SSA’s Death Master File. Accurint also contains death information from obituaries and
                 State death records. We matched beneficiaries’ Social Security Numbers, first and last
                 names, and dates of birth.
                 23
                    For the purposes of this report, we considered a drug to be one PDE record.
                 24
                    For the purposes of this report, we used the type that the pharmacy identified as its
                 primary type.

Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                                    6
                 FINDINGS
                 Medicare paid for HIV drugs for over 150 deceased 

                 beneficiaries as a result of CMS’s current practices 

                 In 2012, Medicare paid for 348 HIV drugs for 158 deceased beneficiaries.
                 The total cost for these drugs was $292,381.25 For each of these drugs, the
                 date of service on the PDE record was after the beneficiary’s death.
                 CMS’s current practices allowed most of these payments to occur.
                 Specifically, CMS has processing edits in place that should reject PDE
                 records with dates of services that are more than 32 days after death. As
                 Table 1 shows, all but 3 of the 348 drugs were dispensed within 32 days
                 after death. About half the HIV drugs were dispensed within 7 days after
                 death. A total of 142 drugs were dispensed between 8 and 20 days after
                 death, while 24 drugs were dispensed between 21 and 32 days after.

               Table 1: Number of Days After Death that the HIV Drugs Were Dispensed

                 Number of Days After Death                         Number of Drugs*               Total Drug Costs


                 1 to 7 days                                                              179             $151,433

                 8 to 20 days                                                             142             $120,314

                 21 to 32 days                                                              24             $18,183

                 33 days or more                                                              3             $2,450

                     Total                                                                348             $292,381
                  *For the purposes of this report, we considered a drug to be one PDE record. 

                  Source: OIG analysis of Part D data, 2014. 



                 CMS’s practices allow payment for drugs that do not meet Medicare
                 coverage requirements. Part D covers only drugs that are prescribed for
                 medically indicated purposes. Drugs dispensed after death cannot be used
                 for medically indicated purposes and therefore are not covered by Part D.
                 According to CMS staff, the 32-day window is in place because some
                 long-term-care pharmacies bill for Part D drugs once a month and
                 inaccurately put this billing date, rather than the actual date of service, on
                 the PDE record.



                 ____________________________________________________________
                 25
                    This figure includes the amount paid by sponsors, by the Government, and on behalf of
                 deceased beneficiaries.

Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                                              7
                 Each of the 158 beneficiaries had between 1 and 6 drugs dispensed after
                 the date of death; most beneficiaries had at least 2. The most common
                 drugs dispensed for deceased beneficiaries were Norvir and Truvada.26
                 See the text box below for examples of HIV drugs dispensed for deceased
                 beneficiaries.



                Examples of Drugs Dispensed After the Beneficiary’s Death
                                and Paid for by Medicare

                     Medicare paid for three HIV drugs for a deceased beneficiary in
                      Miami on two different dates after his death. The drugs cost a total
                      of $7,160.

                     Medicare paid for six HIV drugs for a deceased beneficiary in
                      Michigan. The drugs were ordered by two different prescribers
                      and cost $5,616.

                     Medicare paid for four HIV drugs dispensed in Pennsylvania after
                      a beneficiary’s death. These drugs cost $4,414.

                     Medicare paid for four HIV drugs for a deceased beneficiary in
                      Florida. The drugs cost $3,452.




                 Most of these drugs were dispensed by retail
                 pharmacies
                 Retail pharmacies dispensed 81 percent (283 of 348) of the HIV drugs for
                 deceased beneficiaries.27 In total, 124 pharmacies dispensed drugs for
                 deceased beneficiaries. Of these, 106 were retail pharmacies, 8 were
                 long-term-care pharmacies, and the remaining 10 were other types of
                 pharmacies, such as clinics and mail-order pharmacies. See Table 2.




                 ____________________________________________________________
                 26
                    Norvir and Truvada were also the most commonly dispensed HIV drugs among all
                 Part D beneficiaries.

                 27
                    Retail pharmacies dispensed 82 percent of all Part D drugs in 2009. See OIG, Retail 

                 Pharmacies With Questionable Part D Billing, (OEI-02-09-00600), May 2012. 


Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                                    8
                  Table 2: Types of Pharmacies That Dispensed HIV Drugs for Deceased
                  Beneficiaries, 2012
                                                                           Percentage of
                                                         Number of HIV        HIV Drugs
                                         Number of     Drugs Dispensed        Dispensed
                  Pharmacy Type
                                        Pharmacies After Beneficiaries’            After
                                                                Deaths*    Beneficiaries’
                                                                                 Deaths
                  Retail                                         106                               283   81%
                  Long-Term Care                                     8                              31    9%
                  Clinic                                             4                             16     5%
                  Mail Order                                         2                              4     1%
                  Specialty                                          1                              4     1%
                  Other                                              3                              10    3%
                      Total                                      124                               348   100%
                  *For the purposes of this report, we considered a drug to be one PDE record. 

                  Source: OIG analysis of Part D data, 2014. 




                 The 8 long-term-care pharmacies dispensed a total of 31 HIV drugs for
                 deceased beneficiaries. Of these, 20 drugs were dispensed within 7 days
                 after death, 8 were dispensed between 8 and 20 days after death, and
                 3 were dispensed between 21 and 31 days after death. The small number
                 of these drugs attributed to long-term-care pharmacies indicates that the
                 billing practices of these pharmacies do not result in many claims for HIV
                 drugs within 32 days after a beneficiary’s death.
                 Furthermore, it is problematic if pharmacies are submitting their
                 once-a-month billing date, rather than the actual date of service, on their
                 PDE records. Sponsors are paid on the basis of PDE records, so it is
                 important for these data to be accurate. Also, sponsors, CMS, and OIG
                 use PDE records to detect and prevent fraud, waste, and abuse, and poor
                 data can hinder these efforts.




Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                                    9
                 CONCLUSION AND RECOMMENDATION
                 Our review focuses on HIV drugs; however, the findings have
                 implications for all Part D drugs because Medicare processes PDE records
                 for all drugs the same way. The findings show that CMS’s current practice
                 of permitting Medicare to pay for drugs with a date of service that is after
                 a beneficiary’s date of death has resulted in Medicare’s inappropriately
                 paying for drugs. Drugs for deceased beneficiaries are clearly not
                 medically indicated, which is a requirement for Part D coverage.
                 This review looked only at HIV drugs, which account for one-quarter of
                 one percent of all Part D drugs in 2012. A change in CMS’s practice
                 would affect all Part D drugs, not just HIV drugs. Considering the
                 enormous number of Part D drugs, a change in practice could result in
                 significant cost savings for the program and for taxpayers.
                 We recommend that CMS:
                 Change Its Practice of Paying for Drugs That Have a Date of
                 Service Within 32 Days After the Beneficiary’s Death

                 CMS should eliminate or—if necessary for administrative processing
                 issues—shorten the window in which it accepts PDE records after a
                 beneficiary’s death. Having no window or a short window would prevent
                 inappropriate payments for drugs for deceased beneficiaries and lead to
                 cost savings for the program and for taxpayers.




Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                  10
                 AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                 RESPONSE
                 CMS concurred with our recommendation that it change its practice of
                 paying for drugs that have a date of service within 32 days after a
                 beneficiary’s death. CMS stated that it has had preliminary discussions
                 with the industry to revisit the need for the 32-day window, which it had
                 instituted because the date of service in some pharmacies reflects the date
                 on which the prescription was billed, rather than the date on which the
                 prescription was dispensed. CMS further stated that it will continue
                 discussions with the industry with the goal of reducing the window to the
                 absolute minimum, taking into consideration current industry billing
                 practices and systems constraints.
                 CMS also stated that because many of the prescriptions identified by our
                 study were filled at retail pharmacies, it will also “evaluate the potential
                 use of additional PDE fields in the current editing logic of evaluating the
                 relationship of the date of service to the date of death.” Lastly, CMS
                 stated that if OIG provides the PDE data for deceased beneficiaries, it will
                 post these data for sponsors’ review and, if necessary, correction. Any
                 corrected or deleted PDE records would be considered in the reopening of
                 the 2012 Part D reconciliation. (This reopening will adjust the final
                 payment amounts that CMS made to sponsors for 2012.)
                 We support CMS’s efforts to address this issue. As requested, we will
                 provide CMS with a separate memorandum that includes the PDE records
                 for deceased beneficiaries. The full text of CMS’s comments is provided
                 in Appendix B.




Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                   11
                 APPENDIX A

                  HIV Drugs
                  Brand Name                        Generic Name

                  Multi-Class Combination Products

                  Atripla                           efavirenz, emtricitabine, and tenofovir disoproxil fumarate


                  Complera                          emtricitabine, rilpivirine, and tenofovir disoproxil fumarate

                                                    elvitegravir, cobicistat, emtricitabine, and tenofovir disoproxil
                  Stribild
                                                    fumarate

                  Nucleoside Reverse Transcriptase Inhibitors (NRTIs)

                  Combivir                          lamivudine and zidovudine

                  Emtriva                           emtricitabine, FTC

                  Epivir                            lamivudine, 3TC

                  Epzicom                           abacavir and lamivudine

                  Retrovir                          zidovudine, azidothymidine, AZT, ZDV

                  Trizivir                          abacavir, zidovudine, and lamivudine

                  Truvada                           tenofovir disoproxil fumarate and emtricitabine

                  Videx EC                          enteric coated didanosine, ddI EC

                  Videx                             didanosine, dideoxyinosine, ddI

                  Viread                            tenofovir disoproxil fumarate, TDF

                  Zerit                             stavudine, d4T

                  Ziagen                            abacavir sulfate, ABC

                  Nonnucleoside Reverse Transcriptase Inhibitors (NNRTIs)

                  Edurant                           rilpivirine

                  Intelence                         etravirine

                  Rescriptor                        delavirdine, DLV

                  Sustiva                           efavirenz, EFV

                  Viramune (Immediate
                                                    nevirapine, NVP
                  Release)

                  Viramune XR (Extended
                                                    nevirapine, NVP
                  Release)
                   Source: FDA, Antiretroviral Drugs Used in the Treatment of HIV Infection, August 2013.




Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                                                12
                  HIV Drugs - Continued
                  Brand Name                        Generic Name

                  Protease Inhibitors (PIs)

                  Agenerase                         amprenavir, APV (no longer marketed)

                  Aptivus                           tipranavir, TPV

                  Crixivan                          indinavir, IDV

                  Fortovase                         saquinavir (no longer marketed)

                  Invirase                          saquinavir mesylate, SQV

                  Kaletra                           lopinavir and ritonavir, LPV/RTV

                  Lexiva                            fosamprenavir calcium, FOS-APV

                  Norvir                            ritonavir, RTV

                  Prezista                          darunavir

                  Reyataz                           atazanavir sulfate, ATV

                  Viracept                          nelfinavir mesylate, NFV

                  Fusion Inhibitors

                  Fuzeon                            enfuvirtide, T-20

                  Entry Inhibitors - CCR5 Co-Receptor Antagonist

                  Selzentry                         maraviroc

                  HIV Integrase Strand Transfer Inhibitors

                  Isentress                         raltegravir
                  Source: FDA, Antiretroviral Drugs Used in the Treatment of HIV Infection, August 2013.




Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                                   13
                   APPENDIX 8
                   Agency Comments


            DEPARTMENT OF I !EALTII & HUMAN SERVICES                                       Centers for Merhcare & Med!CiliO Serv1ces



                                                                                           Atlmiuistrator
                                                                                           Wnshmqton. OC 20201




        DATE:
                        . SEP ZZ 2014
        TO:             Daniel R. Levinson
                        Inspector Cieneral
                                             /S/
         FROM: 	        Marily!> Tavenuer
                        Administrator

        SUBJECT: 	      Office of Inspector General (O!G) Oral\ Rcpnrt: "Medicnre Paid fin HJV Drugs fi>r
                        Deceased Beneficiaries" (OEI-02-11-00 172)

        The Centers lor Medicare & Medicaid Servin:s (CMS) appreciates the opportunity to review and
        comment on the ahove-rclerenced OIG dral\ report. The purpose oi' this report was to determine the
        extent to which Medicare Part D paid ((n human immunodeficiency virus (I-! IV) drugs Ji1r deceased
        heneficiaries in 2012. CMS appreciates OIG ·s concerns ahout Medicare paying li1r drugs and
        services after a hcnef1cimy has died. and has impkmented sall:guards to address these vulnerahilitics.
        For example. CMS has put into place processes to prevent payments made al\er a heneficlary·s death
        and recover improper payments. Our response lO the OIG rcct>mmendation l(llfnws.

         OIG Recommendation

         OJG recommends that CMS change its practice or paying lor drugs that have a date or service within
         32 days al\er the heneficiary·s death. OIG stated thai CMS should climinntc or. if necessary l(>r
         administrative processing issues. shorten the window in which it accepts prescription drug event
         (PDE) data alkr a heneticiary's death. OIG helieves that having no window or a short window
         would prevent inappropriate payments li>r drugs l(lr deceased hene!lciaries and lead to cost-savings
         li1r the program and 1\>r taxpayers.

         CMS Response

         CMS concurs. Arter reviewing this report. CMS has hml preliminary discussions with the industry to
         revisit the need llw a 32-day window, which was instituted because the date oi'service in some
         phannacies ret1ects the date the prescription was hilled, not the date the prescription was dispensed.
         CMS will continue discussions with the industry with a goal ofn.:ducing the margin to the ahsolute
         minimum given current industry hilling practices and systems constraints. CMS will <dso evaluate
         the potential usc of additional PDE lie ids in the current editing logic or evaluating the relationship nf
         the date of service to the date of death since many of the pn.:scriptions were filled at retail
         pharmacies. In addition. ifOIG can provide the PDE data. CMS will post the data to the PDE
         website lor sponsor review and ifnecessm-y. correction. Any corrected or clcktccl !'DEs would be
         considered in the 2012 Part D reopening.

         Thank you 1()1· the opportunity to review and comment on the drali OICi report.




Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                                                               14
                 ACKNOWLEDGMENTS
                 This report was prepared under the direction of Jodi Nudelman, Regional 

                 Inspector General for Evaluation and Inspections in the New York regional 

                 office, and Nancy Harrison and Meridith Seife, Deputy Regional 

                 Inspectors General. 

                 Miriam Anderson served as the team leader for this study. Other Office of 

                 Evaluation and Inspections staff from the New York regional office who 

                 conducted the study include Jenell Clarke-Whyte and Jason Kwong. 

                 Central office staff who provided support include Eddie Baker, Jr.; 

                 Mandy Brooks; Kevin Farber; David Graf; Meghan Kearns; and 

                 Christine Moritz.





Medicare Paid for HIV Drugs for Deceased Beneficiaries (OEI-02-11-00172)                 15
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
